OFFICE OF INSPECTOR GENERAL

                  Audit Report


Audit of Job Duty Verification Procedures for Long Island
      Rail Road Occupational Disability Applicants



                   Report No. 13-02
                   January 15, 2013




 RAILROAD RETIREMENT BOARD
                              EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an audit of the Railroad Retirement
Board’s (RRB) job duty verification procedures for Long Island Rail Road (LIRR)
occupational disability applicants.

In the fall of 2008, a series of news reports raised concerns about the large number of
workers from LIRR who applied and were approved for occupational disability benefits
by the RRB. The OIG had subsequently issued briefing reports related to these
findings. One particular report issued in November of 2011, titled “Program
Vulnerabilities in the Railroad Retirement Board Occupational Disability Program,”
revealed that occupational disability benefits were being awarded despite unverified job
information. The finding was expanded into this audit and resulted in the identification
of opportunities to improve the effectiveness of controls over the occupational disability
process.

The objective of the audit was to determine whether RRB disability examiners granted
occupational disability annuities (to LIRR employees) based on unverified job
information.

Findings

Our audit determined that RRB’s disability examiners did not always verify job duty
information before granting occupational disability annuities. We identified nine
individuals who were approved for occupational disability annuities even though their
railroad employer, LIRR, did not return the Job Information Forms to the RRB. These
nine unverified annuities represent an estimated $3.8 million in financial risk to the
agency. The financial risks to the agency would be significantly higher if we considered
all railroad employers that did not return Job Information Forms.

In addition, the RRB’s policies and procedures, which are contained in the Disability
Manual, were not sufficient to ensure that the job information provided by LIRR
employees was appropriately verified by the railroad employer prior to the agency’s
occupational disability determinations.




                                             i
Recommendations

To address the identified control weaknesses, we recommended that the Office of
Programs work with the agency’s three-member Board and/or the Disability Advisory
Committee to:

      •   Modify occupational disability procedures to comply with the Code of Federal
          regulations (CFR) and to ensure that every reasonable effort is made by the
          District Office staff and/or the Disability staff to obtain the Job Information
          Forms from the railroad employer during the established response period.

      •   Revise the wording of the Job Information Forms using stronger language.

      •   Send or route the Job Information Forms to the applicant’s direct supervisor,
          and require the direct supervisor to certify the information given in the space
          provided on the appropriate Job Information Form.

      •   Consider extending the employer response period to forward the Job
          Information Forms and related documentation to the RRB.

      •   Perform a study to determine the reasons for the railroad employers’ failure to
          return the Job Information Forms, and take corrective action to elicit better
          responses based on their findings.

Management’s Response

The Office of Programs stated that they had one significant concern regarding the
report. They said that the report gives an incorrect impression with respect to the
relationship between the Board’s regulations as published in the Code of Federal
Regulations (CFR) and the policies and procedures used by disability examiners to
evaluate applications for disability benefits. They stated that both the regulations and
the procedures were developed in 1997 as part of the same joint labor-management
initiative and the procedures were extensively reviewed at that time and properly reflect
the regulations.

The Office of Programs also stated that they are unable to comment on the
recommendations made in the report at this time. They further stated that the
recommendations contained in the draft report differed from those discussed with OIG
audit staff in that the recommendations now state that the Office of Programs work with
“the agency’s three-member Board and/or the Disability Advisory Committee” to
implement the five recommendations in the report. Therefore, the Office of Programs
stated that their response as to concurrence or non-concurrence for each
recommendation will be delayed until they can confer with Board Offices.




                                             ii
RRB-OIG’s Comments on Management’s Response

We disagree with the Office of Programs’ statements that the report gives an incorrect
impression with respect to the relationship between the Board’s regulations as
published in the Code of Federal Regulations (CFR) and the policies and procedures
used by disability examiners to evaluate applications for disability benefits. Although we
understand that the policies and procedures and regulations were developed jointly in
1997, we found that current policies and procedures do not strictly adhere to the
regulations in the CFR, and consequently, do not fully meet the intent of the regulations.

With regards to the Office of Programs’ statements that the recommendations contained
in the draft report differ from those we discussed, we disagree. The recommendations
themselves did not significantly change. However, when the OIG met with the Office of
Programs to detail our audit findings, the Office of Programs management and staff told
us that they lacked the authority to change any of the policies and procedures regarding
disability determinations. Based on these statements and regulations which specify that
the (Disability Advisory) Committee shall periodically review, as necessary, the subpart
of the CFR and the Disability Manual (which contains the disability policies and
procedures) and make recommendations to the Board with respect to amendments to
the CFR or the Disability Manual, we expanded the recommendation to include the
three-member Board and the Disability Advisory Committee.

Other Related Comments

In connection with the RRB’s compliance with the 1995 Paperwork Reduction Act, the
RRB submitted a comment request in the Federal Register which invited comments on
the RRB’s data collection forms for job duty information. In response to the request,
LIRR submitted a letter to the agency dated December 17, 2012. In this letter, LIRR
made recommendations that were similar to some of those contained in this audit
report.




                                            iii
                                        TABLE OF CONTENTS


EXECUTIVE SUMMARY


INTRODUCTION


 Background .................................................................................................................. 1

 Audit Objective ............................................................................................................. 3

 Scope ........................................................................................................................... 3

 Methodology ................................................................................................................. 4

RESULTS OF AUDIT


 Occupational Disability Annuities Were Granted to LIRR Employees Despite
 Unverified Job Duty Information ................................................................................... 5

   Recommendation ...................................................................................................... 6
   Management’s Response.......................................................................................... 6
   RRB-OIG’s Comments on Management’s Response................................................ 6

 Policies and Procedures Need Improvement ............................................................... 7

   Recommendations .................................................................................................... 9
   Management’s Response.......................................................................................... 9
   RRB-OIG’s Comments on Management’s Response................................................ 9
   Other Related Comments ........................................................................................ 10

APPENDICES


 Appendix I - Testing Methodology and Results .......................................................... 11

 Appendix II - Estimated Dollars at Risk ...................................................................... 14

 Appendix III - Management’s Response..................................................................... 15


                                                               iv
                                           INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
Railroad Retirement Board’s (RRB) job duty verification procedures for Long Island Rail
Road (LIRR) occupational disability applicants.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act. These programs provide
income protection during old age and in the event of disability, death, or temporary
unemployment and sickness.

The RRA provides for the payment of an occupational disability annuity if an employee
becomes permanently unable to perform his or her regular railroad occupation due to
illness or injury. To become eligible for an occupational disability annuity, an employee
must have completed 10 years of service and attained age 60, or may qualify with 20
years of service regardless of age. The employee must also have a current connection
with the railroad industry. Generally, the current connection requirement can be
satisfied by having completed at least 12 months of creditable railroad service in the 30
months preceding the annuity commencement date.

Once the disability annuity has been awarded, there are two requirements for the
continuation of benefit payments. The annuitant must continue to be unable to perform
his or her railroad occupation, and may not have monthly earnings in excess of $790
(after deduction of disability related expenses) from any work, or annual earnings in
excess of $9,480. 1

Job duty information is necessary in the occupational disability process to compare with
impairment-related restrictions. In order to apply for occupational disability benefits,
Form G-251(hereafter referred to as the “Vocational Report”) is completed by the
applicant. It includes work history for determining the regular railroad occupation and a
job description of tasks performed. The tasks include a narrative description,
environmental hazards, and physical activities involved in an 8-hour work day.

After the Vocational Report is filed by the employee, Forms G-251a and G-251b
(hereafter referred to as the “Job Information Forms”) are sent to the railroad employer
to inform the employer that the applicant has filed for an occupational disability and to
provide an opportunity for the employer to comment on the job duties that were reported
by the applicant.




1
    These are Calendar Year 2012 limits.

                                                1
In connection with the adjudication of occupational disability claims, examiners use job
duty information provided by railroad employee on the Vocational Report, and job
information received from railroad employer on the Job information Form to determine
the job duties performed. The occupational disability applicants’ reported job
information, in addition to other background data and medical data, is used in making
occupational disability determinations.

In June 1997, representatives of rail labor and management announced that they had
reached an agreement on joint recommendations to the RRB to reform the occupational
disability program. In November 1997, the agency’s three-member board (the Board)
approved the draft final rule in Section 220.10 (a) of 20 Code of Federal Regulation
(CFR) Ch. II Subpart C. In accordance with these regulations, the RRB selected two
physicians, one based on the recommendations of employers, and the other based on
the recommendations of employees. 2 These individuals comprised the Occupational
Disability Advisory Committee. In 1997, this committee submitted the Disability Manual
to the agency for approval. According to the above regulations, “This Committee shall
periodically review, as necessary, this subpart and the (Disability) Manual and make
recommendations to the Board with respect to amendments to this subpart or to the
Manual. The Board shall confer with the Committee before it amends either this subpart
or the Manual.”

The RRB’s Office of Program’s Disability Benefits Division is responsible for developing,
analyzing, and evaluating records of physical examinations, medical treatment,
employment vocational experience, and other information in connection with claims for
occupational disability benefits. Occupational disability determinations are made based
on the findings of fact and law. This office also requests additional evidence and orders
medical examinations through a contractor, and reviews completed reports for
adequacy.

During Fiscal Year (FY) 2011, approximately $1.9 billion, representing approximately
83% of all disability benefit payments, were paid to more than 62,000 railroad
employees who had been initially awarded benefits under the occupational disability
provisions of the RRA. All of these employees were subject to the job duty verification
process as required under the RRA. With advancing age, and changing medical
conditions, many disabled annuitants have subsequently qualified for benefits by reason
of age and service, or by becoming totally and permanently disabled. During FY 2011,
the RRB awarded a total of 1,923 occupational disability annuities; 41 applications were
denied.




2
 Section 220.10 (a) of 20 CFR Ch. II Subpart C refers to Disability under the Railroad Retirement Act for Work in an
Employee’s Regular Railroad Occupation.

                                                         2
In the fall of 2008, a series of news reports raised concerns about the large number of
workers from LIRR who applied and were approved for occupational disability benefits
by the RRB. As a result, the RRB issued a board order (Board Order #08-63) on
October 20, 2008. This board order adopted and implemented recommendations to
ensure that only LIRR employees who are eligible receive occupational disability
annuities. In a memorandum dated October 10, 2008, the Inspector General
recommended a number of changes to the agency’s disability program. One of the
recommendations was that occupational disability applications should not be
adjudicated if the completed Job Information Forms are not received from the employer.
In response to this recommendation, RRB management requested a legal opinion from
the agency’s General Counsel. The legal opinion stated that, if the Board were to
refuse to adjudicate any occupational disability annuity application where the railroad
employer has failed to complete the Job Information Forms, the Board would, in effect,
be imposing another eligibility requirement on each applicant. Therefore, the agency
found that the OIG recommendation could not be legally implemented. However, this
legal opinion does not affect the recommendations made in this audit report.

The OIG has issued two briefing reports, one in 2008, and one in 2011, on the
occupational disability program administered by the RRB. 3 Both focused on LIRR
employees and their experiences with the occupational disability program. The 2011
paper identified weaknesses in the process of awarding occupational disability annuities
based on unverified job duty information. In connection with those identified
weaknesses, the OIG conducted this audit.

The RRB’s strategic plan includes ensuring the accuracy and integrity of benefit
programs, which is paying the correct amount of benefits to the right people, as the
second strategic objective in meeting the larger goal of serving as responsible stewards
for their customers’ trust funds and agency resources. This audit directly addresses
that key area of performance.

Audit Objective

To determine whether the RRB’s disability examiners granted occupational disability
annuities (to LIRR employees) based on unverified job information.

Scope

The scope of our audit included all the disability annuities awarded to LIRR employees
from October 21, 2008 through September 30, 2011. 4



3
  OIG reports issued –“Retirement Experience of the Employees of the Long Island Rail Road Under the Railroad
Retirement Act,” November 24, 2008, page 4, and ”Program Vulnerabilities in the Railroad Retirement Board
Occupational Disability Program,” November 7, 2011, pages 6 and 7.
4
  Occupational disability cases awarded on October 21, 2008 are included in the scope. However, the database used
to track LIRR occupational disability cases began on October 22, 2008.

                                                       3
Methodology

To accomplish our objectives, we:

   •   Reviewed prior OIG findings.
   •   Reviewed applicable laws, regulations, agency’s policies and procedures, and
       the Government Accountability Office’s (GAO) Standards of Internal Control.

   •   Assessed whether agency’s procedures agreed to corresponding law.
   •   Obtained an understanding of the criteria that was applicable to our audit
       objective.
   •   Conducted walkthroughs of occupational disability claim process and related
       controls.
   •   Interviewed responsible RRB management and staff as necessary.
   •   Obtained download of Program and Evaluation Management Service’s (PEMS)
       utility database containing all LIRR occupational disability cases completed
       (awarded cases) from October 21, 2008 through September 30, 2011.
   •   Selected a random sample of 50 completed LIRR occupational disability case
       files from the universe of LIRR completed case files from PEMS utility database
       for the period of October 22, 2008 through September 30, 2011.
       (See Appendix I.)

We tested data reliability by comparing data downloaded from the PEMS database,
which was the source of our sample, with LIRR occupational disability award data
provided by the RRB’s Bureau of Actuary. We determined the download data was
sufficiently reliable for the purposes of this audit.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois and the
RRB’s OIG office in New York, New York, from December 2011 through October 2012.




                                            4
                                  RESULTS OF AUDIT

Our audit determined that RRB’s disability examiners did not always verify job duty
information before granting occupational disability annuities. We identified nine
individuals who were approved for occupational disability annuities even though their
railroad employer, LIRR, did not return the Job Information Forms to the RRB. These
nine unverified annuities represent an estimated $3.8 million in financial risk to the
agency. The financial risks to the agency would be significantly higher if we considered
all railroad employers that did not return Job Information Forms. In addition, we
determined that job duty verification procedures were insufficient to ensure employer
verification of job duty information.

The full text of Management’s response is included in this report as Appendix III. The
details of our audit and recommendations for corrective action follow.

Occupational Disability Annuities Were Granted to LIRR Employees Despite
Unverified Job Duty Information

RRB’s disability examiners did not always grant occupational disability annuities for
LIRR applicants based on verified job duty information.

During our review of 50 cases, we found that 14 of 50 (28%) occupational disability
determinations were made based on unverified job data. This included 9 cases where
the Job Information Form was not received, and 5 cases where the Job Information
Form was received after the occupational disability determination was made.
(See Appendix I.)

The CFR states that “…[i]n determining the job demands of the employee's regular
railroad occupation, the Board will not only consider the employee's own description of
his or her regular railroad occupation, but shall also consider the employer’s description
of the physical requirements and environmental factors relating to the employee's
regular railroad occupation, as provided by the employer on the appropriate form….” 5

Disability determinations were made without the proper verification of job duty
information because the procedures set forth in the Disability Manual did not strictly
adhere to the regulations in the CFR.

Procedures that allow occupational disability determinations to be made without the
proper verification of job duty information increases the risk of potential fraud and the
granting of occupational disability annuities to applicants who are not entitled.




5
    20 CFR § 220.13

                                             5
Recommendation:

We recommend that the Office of Programs work with the agency’s three-member
Board (Board) and/or the Disability Advisory Committee to:

   1. Modify occupational disability procedures to comply with the CFR and ensure
      that every reasonable effort is made by the District Office staff and/or the
      Disability staff to obtain the Job Information Form from the railroad employer
      during the established response period.

Management’s Response

The Office of Programs stated that they are unable to comment on this recommendation
at this time. They further stated that the recommendations contained in the draft report
differed from those discussed with OIG audit staff in that the recommendations now
state that the Office of Programs work with “the agency’s three-member Board and/or
the Disability Advisory Committee” to implement the five recommendations in the report.
Therefore, they stated that their response as to concurrence or non-concurrence for
each recommendation will be delayed until they can confer with Board Offices.

The Office of Programs also stated that they had one significant concern regarding the
report. They said that the report gives an incorrect impression with respect to the
relationship between the Board’s regulations as published in the Code of Federal
Regulations (CFR) and the policies and procedures used by disability examiners to
evaluate applications for disability benefits. They stated that both the regulations and
the procedures were developed in 1997 as part of the same joint labor-management
initiative and the procedures were extensively reviewed at that time and properly reflect
the regulations.

RRB-OIG’s Comments on Management’s Response

With regards to the Office of Programs’ statements that the recommendations contained
in the draft report differ from those we discussed, we disagree. The recommendations
themselves did not significantly change. However, when the OIG met with the Office of
Programs to detail our audit findings, the Office of Programs management and staff told
us that they lacked the authority to change any of the policies and procedures regarding
disability determinations. Based on these statements and regulations which specify that
the (Disability Advisory) Committee shall periodically review, as necessary, the subpart
of the CFR and the Disability Manual (which contains the disability policies and
procedures) and make recommendations to the Board with respect to amendments to
the CFR or the Disability Manual, we expanded the recommendation to include the
three-member Board and the Disability Advisory Committee.




                                            6
We disagree with the Office of Programs’ statements that the report gives an incorrect
impression with respect to the relationship between the Board’s regulations as
published in the Code of Federal Regulations (CFR) and the policies and procedures
used by disability examiners to evaluate applications for disability benefits. Although we
understand that the policies and procedures and regulations were developed jointly in
1997, we found that current policies and procedures do not strictly adhere to the
regulations in the CFR, and consequently, do not fully meet the intent of the regulations.


Policies and Procedures Need Improvement

Our review determined that RRB’s job verification policies and procedures were not
sufficient to ensure that the job information provided by LIRR employees was
appropriately verified by the railroad employer prior to making occupational disability
determinations.

Internal control is an integral component of an organization’s management that provides
reasonable assurance concerning the effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and regulations.
Pursuant to the provisions of the Federal Managers’ Financial Integrity Act of 1982,
GAO has issued “Standards for Internal Control in the Federal Government.” These
standards provide the overall framework for establishing and maintaining internal control
and for identifying and addressing major performance and management challenges and
areas at greatest risk of fraud, waste, abuse, and mismanagement.

During our review of RRB job verification policies and procedures, we found that the
wording on the Job Information Forms that are sent to the railroad employer to verify job
requirements suggest that a response is not required. The following are excerpts from
the Job Information Forms:

   •   “The above named railroad employee has applied for an occupational disability
       benefit under section 2(a) (IV) of the Railroad Retirement Act. RRB regulation 20
       CFR 220.13 (b) (2) provides that railroad employers may furnish pertinent
       information concerning the job duties the employee is required to perform.”
   •   “If you wish to provide job duty information on the above-named employee, it
       must be received by the RRB no later than….

Our review also determined that the job information forms are routinely addressed to the
railroad employer’s Human Resource Department rather than to the employee’s
immediate supervisor. In our opinion, the employee’s supervisor would be the best
source for obtaining a description of actual duties performed by the employee.

Of the remaining 41 responses we found that 31 (75%) were from LIRR Human
Resource Department, 8 (20%) were from LIRR Audit and Quality Services Department,
2 (5%) were from LIRR Pension Administration Systems and Services Department; not
one was received from the employee’s immediate supervisor.

                                            7
RRB’s current policy indicates that the employer will be given 30 days to return the
complete Job Information Form. If the employer does not respond within this time,
occupational disability examiners are instructed to use the job duty information on the
Vocational Report (which is supplied by the applicant) when evaluating the occupational
disability determination. Furthermore, the examiner is instructed not to trace the Job
Information Forms with the field office or the railroad employer. These procedures allow
disability examiners to make occupational disability determinations based on unverified
job data, which is contrary to the CFR.

RRB’s failure to implement policies and procedures that would ensure the complete and
proper verification of job duty information from the employer resulted in the granting of
occupational disability awards based on unverified job duty information. As a result,
there is an increased risk of granting occupational disability awards to individuals who
are not entitled.

In 9 of the 50 (18%) cases tested, the railroad employer (LIRR) did not return the Job
Information Form. The estimated financial impact of the occupational disability benefits
payable to the nine annuitants where the Job Information Forms were never returned to
the RRB totals approximately $3.8 million. 6 Taking into account that this $3.8 million
represents only one railroad employer, the financial risks to the agency would be
significantly higher if we considered all railroad employers that did not return Job
Information Forms. (See Appendices I and II.)




6
 This calculation includes benefits payable from annuity beginning date to the annuitants’ full retirement ages, at
which time they would begin receiving regular retirement benefits.

                                                           8
Recommendations

We recommend that the Office of Programs work with the Board and/or Disability
Advisory Committee to:

   2. Revise the wording of the Job Information Forms using stronger language.

   3. Send or route the Job Information Forms to the applicant’s direct supervisor, and
      require the direct supervisor to certify the information given in the space provided
      on the appropriate Job Information Form.

   4. Consider extending the employer response period to forward the Job Information
      Forms and related documentation to the RRB.

   5. Perform a study to determine the reasons for the railroad employers’ failure to
      return the Job Information Forms, and take corrective action to elicit better
      responses based on their findings.

Management’s Response

The Office of Programs stated that they are unable to comment on these
recommendations at this time. They further stated that the recommendations contained
in the draft report differed from those discussed with OIG audit staff in that the
recommendations now state that the Office of Programs work with “the agency’s three-
member Board and/or the Disability Advisory Committee” to implement the five
recommendations in the report. Therefore, they stated that their response as to
concurrence or non-concurrence for each recommendation will be delayed until they
can confer with Board Offices.

RRB-OIG’s Comments on Management’s Response

With regards to the Office of Programs’ statements that the recommendations contained
in the draft report differ from those we discussed, we disagree. The recommendations
themselves did not significantly change. However, when the OIG met with the Office of
Programs to detail our audit findings, the Office of Programs management and staff told
us that they lacked the authority to change any of the policies and procedures regarding
disability determinations. Based on these statements and regulations which specify that
the (Disability Advisory) Committee shall periodically review, as necessary, the subpart
of the CFR and the Disability Manual (which contains the disability policies and
procedures) and make recommendations to the Board with respect to amendments to
the CFR or the Disability Manual, we expanded the recommendation to include the
three-member Board and the Disability Advisory Committee.




                                            9
Other Related Comments

In connection with the RRB’s compliance with the 1995 Paperwork Reduction Act, the
RRB submitted a comment request in the Federal Register which invited comments on
the RRB’s data collection forms for job duty information. In response to the request,
LIRR submitted a letter to the agency dated December 17, 2012. In this letter, LIRR
made recommendations that were similar to some of those contained in this audit
report.




                                          10
                                                                               Appendix I




                      TESTING METHODOLOGY AND RESULTS

                                  RANDOM SAMPLE

This appendix presents the methodology and results of our tests for a random sample of
LIRR occupational disability case files. Our testing involved the verification of job duty
information.

Audit Objective

We tested a randomly selected sample of LIRR occupational disability case files to
determine whether RRB occupational disability examiners granted occupational
disability annuities based on unverified job information.

Scope

Using the RRB’s PEMS utility database, we randomly selected a sample of 50
occupational disability case files from a population of 348 LIRR completed occupational
disability cases (awarded cases) for the period October 21, 2008 through
September 30, 2011. All awarded cases in the population were subject to selection.

Review Methodology

We used the following methodology for testing the case files once they were identified.

   1. Noted evidence of completed Vocational Report from railroad employee and
      returned Job Information Form and related documentation from railroad
      employer.

   2. Determined whether job duties described on both Vocational Report and Job
      Information Form (including related documents) were in agreement.

   3. Determined whether the occupational disability decision was made based on
      verified or unverified job data per the Vocational Report.

   4. Noted evidence of job duty verification procedures.

   5. Interviewed agency employees about the content of the files.

   6. Examined the case files to determine who completed the Job Verification Forms
      to establish the number of cases where the immediate supervisor had completed
      the forms.




                                           11
                                                                               Appendix I


Results

We noted the following:

    •   In 9 of the 50 (18%) cases tested, the railroad employer did not return the Job
        Information Form. In the remaining 41 cases where the forms were returned,
        the Job Information Forms were not received from claimant’s immediate
        supervisor.

    •   In 5 of the 50 (10%) cases tested, the Job Information Form was received after
        the occupational disability award was granted.

    •   In 14 of the 50 (28%) cases tested, occupational disabilities were awarded
        based on unverified job data.




                                           12
                                                                                                           Appendix I


The results of our case review and issues identified are outlined in the table below.




                                                                                 Tested



                                                                                              Exceptions
                                                                                              Non-




                                                                                                                    Exceptions
Test attributes - Job Verification – Case File Review




Job Verification

Job verification was considered complete if the Job
Information Form was received, reviewed and
reconciled to the Vocational Report by examiner prior to
the occupational disability determination.

Categories 1, 2, 3 and 4 below were considered as
exceptions.
    (1) Job Information Forms never received                                   50            41                 9

    (2) Job Information Forms received after award                             50            45                 5

    (3) Occupational Disability determinations based on                        50            36                14
        unverified job duty Information
    (4) Job Information Forms not received from
                                                                                                                    7
        claimants’ immediate supervisors (50 case files                        41            0                41
        less the 9 case files where job information forms
        were not received from employer = 41case files
        tested)

Audit Conclusion:

RRB’s disability examiners did not always grant occupational disability annuities for
LIRR employees based on verified job information. Such practices were attributable to
weaknesses in RRB’s job verification policies and procedures, which failed to ensure
that the job information provided by LIRR employees was appropriately verified by the
railroad employer prior to the occupational disability determination.




7
  Category #4 in the table above does not prevent the job verification process from occurring. However, this
observation was classified under exceptions based on the fact that not receiving a Job Information Form from the
claimant’s immediate supervisor weakens the job verification process; resulting in an increased risk of obtaining
inaccurate job duty information from indirect sources.


                                                         13
                                                                              Appendix II


                               Estimated Dollars at Risk



The estimated financial impact of nine individuals who were approved for occupational
disability annuities even though their railroad employer, LIRR, did not return the job
information form to the RRB, are provided in the table below. The calculation includes
benefits payable from the annuity beginning date to the annuitant’s full retirement age,
at which time regular retirement benefits would begin.


  Annuitant #         Annuity           Estimated        No. of Benefit      Estimated
                     Beginning       Retirement Date     Months to be       Amount of
                       Date                               Paid Until       Dollars at Risk
                                                          Retirement
       1            11/01/2008        01/01/2021              147            $480,524
       2            12/01/2008        04/01/2021              149            $456,788
       3            03/01/2009        11/01/2014               69            $249,266
       4            04/01/2009        04/01/2014               61            $227,458
       5            02/01/2009        03/01//2016              86            $311,110
       6            12/01/2009        05/01/2026              198            $709,362
       7            05/01/2010        06/01/2026              194            $672,677
       8            04/01/2010        07/01/2013               40            $114,219
       9            11/01/2010        11/01/2024              169            $594,088
     Total                                                                  $3,815,492




                                           14
